No. 19-874

In the Supreme Court of the United States
WILLIAM ALAN PESNELL AND CHRISTOPHER
HOLDER, THROUGH HIS CURATOR, GARY HOLDER,
Petitioners,
v.
JILL SESSIONS, CLERK OF COURT, JENNIFER
BOLDEN, CERTIFIED DIGITAL REPORTER, AND
THE JUDGES OF THE 26th JUDICIAL DISTRICT
COURT: MICHAEL O. CRAIG, JEFF R. THOMPSON,
JEFF COX, E. CHARLES JACOBS, MICHAEL
NERREN, AND PARKER O. SELF,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
PROOF OF SERVICE
Undersigned counsel certifies that, under Supreme Court Rule 29.3, the Brief
in Opposition was served on each party, or that party’s counsel, as listed below, on
May 20, 2020. Service was made by United States mail—with first-class postage
prepaid.
Billy R. Pesnell
The Pesnell Law Firm, A.P.L.C.
400 Travis Street, Suite 1100
Shreveport, Louisiana 71101
I declare under penalty of perjury that the following is true and correct.
Executed on May 20, 2020.
/s/ Elizabeth Baker Murrill
ELIZABETH BAKER MURRILL

